Ill
                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF JNSPECTOR GENERAL
      '                                           OFFICE OF INVESTIGATIONS


Il                                         ACTION MEMORANDUM

     TO: AIGI        File Number: A-01110040                                                  Date: March 22,2002

     Subject: Closeout                                                                                   Page 1 of 2


            We received allegations that the subject' took experiments from the complainant's2 NSF
            proposals the subject received for review. First, it was alleged that the subject took an
            experiment (experiment 1) from NSF proposals (Proposals l 3 andlor 24), which the subject
            subsequently presented in a manuscript he planned to publish.5 Second, it was alleged that the
            subject took another experiment (experiment 2) from another NSF proposal (Proposal 36), which
            the subject discussed informally at a scientific meeting with the complainant.

             We determined that the subject reviewed Proposals 1 and 2, but did not review Proposal 3. Our
            review of the first allegation, which included the examination of the complainant's and the
             subject's publications, professional society presentations, and other NSF proposals, showed that:
             1) experiment 1 was not a unique approach to investigate the type of questions posed; 2) the
             information necessary to develop experiment 1 was publicly available prior to the subject's
            receipt of either proposal for review; and 3) the subject had already received an NSF award7
            prior to the Proposals that provided support for experiments that were very similar to those
            proposed by the complainant. We determined that there was insufficient substance to pursue the
            .first allegation.




            dreceived b NSF on 11 August 1998 and sent to the subject for review on 29 October 1998.
                           (Proposal 2), entitled
             11 February 1999 and sent to the
                                                                                                     received by NSF on

                          t was to be sent to
                           (Proposal 3), entit                                                       received by NSF in

                          , entitled
                            was submitted by the subject on 9 January 1998.


                      Prepared by:                         Cleared by:
                     Agent:            Attorney:          Supervisor:         AIGI
          Name:


      Signature &
         date:
                                         NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                      ACTION MEMORANDUM

TO: AIGI       1   File Number: A-01 110040                                  1   Date: Today


Subject: Case Closeout                                                       ~             Page 2 of 2



      Because the subject did not reviewed Proposal 3, we determined he could not have taken
      experiment 2 from the proposal and, therefore, there was no substance to the second allegation.

      This case is closed and no further action will be taken.
